 '''VICCS.



                   DEPARTMENT OF HEALTH &. HUMAN                     SERVICES                   Office of Inspector General



:..".no                                                                                         Washington , D. C.   20201




                                                               AUG   2 4 2004



             TO:                 Wade F. Horn , Ph.
                                 Assistant Secretay for
                                       Children and Families

                                 Mark B. McClellan , M.D. , Ph.
                                 Administrator
                                 Centers for M dicar
                                                               ;ticaid Services
             FROM:               Dara Corrga
                                 Acting Principal Deputy Inspector General

             SUBJECT: OIG Final Report: " Children s Use of Health Care Services While in Foster
                      Care: North Dakota " OEI- 07- 00- 00643

             Attched is a final report that assesses whether sampled children in the North Dakota
             foster care program are receiving health care services that fulfill Federal and State
             requirements. We conducted this inspection in response to concerns about the health care
             that children in foster care are receiving. This report is one of a series of inspections that
             focus on children s use of health care services while in foster care in eight States:
             Georgia , Ilinois , Kansas , New Jersey, New York , North Dakota , Oregon , and Texas.

             We determined that all 50 of the children in our sample had Medicaid coverage and
             Medicaid claims for health care services. Thirty- five of the fifty sampled children
             received their most recent required Early and Periodic Screening, Diagnosis , and
             Treatment (EPSDT) examination , and 30 of 38 sampled children required to receive
             EPSDT dental services had received their most recent EPSDT dental service. Some
             sampled children waited months after entering foster care to receive an initial
             comprehensive medical examination recommended by the State. We also found that
             mental health needs were not documented for 12 of the 34 sampled children who received
             mental health services as Federal law requires. Such documentation is importt to
             ensure children receive appropriate and necessary services timely. Finally, Federal law
             and State policy require that foster care providers (i. , foster parents or residential care
             facility staff receive medical information about the child in their care , yet 9 of the 48
             foster care providers interviewed reported never receiving this information.

             We recommend that the Administration for Children and Families (ACF) work with the
             North Dakota Division of Children and Family Services to examine how initial
             comprehensive medical examinations for children entering foster care are being provided;
             ensure that case plans reflect required mental health needs; and promote the importance
             of caseworkers obtaining medical information for children in foster care and giving the
Page 2 - Wade F. Horn, Ph. D. and Mark B. McClellan , M.      , Ph.

medical information to foster care providers , in accordance with Federal requirements.
We recommend that the Centers for Medicare & Medicaid Services (CMS) work with the
North Dakota Division of Medical Services to develop a method for notifying foster care
providers of when required EPSDT services are due; and to increase the number of dental
providers accepting Medicaid in North Dakota. We also recommend that ACF and CMS
work with the North Dakota Department of Human Services to coordinate State agency
efforts to educate caseworkers and foster care providers regarding the importnce and
availability of EPSDT medical examinations; to ensure caseworkers and foster care
providers understad the difference between comprehensive EPSDT examinations and
medical examinations for specific health conditions; and to educate caseworkers and
foster care providers regarding State EPSDT frequency schedules for dental services.

In response to our recommendations , ACF noted that it is actively working with the
North Dakota Division of Medical Services to promote the importance of obtaining
medical histories and providing medical information to foster care providers and that
these issues are being addressed in the Program Improvement Plan developed in response
to a Child and Family Services Review. They also note that only 79 percent of the cases
reviewed during the on-site portion ofthe Child and Family Services Review
substantially achieved the outcome measure which determines if children receive
adequate services to meet their physical and mental health needs. CMS generally
concured with our recommendations but clarified that they should be carried out by joint
action of the North Dakota Divisions of Medical Services and Children and Family
Services. CMS stated that their regional office staff is available to provide techncal
assistance to both Divisions , as appropriate.

Please send us your final management decision , including any action plan , as appropriate
within 60 days. If you have any questions or comments about this report , please do not
hesitate to call me or your staff may contact Elise Stein, Director , Public Health and
Human Services Branch , at (202) 619- 2686 or through e-mail ( Elise. Stein(goig. hhs. gov
To facilitate identification , pl se refer tOJepQrtm.1IIlb J QEI- Q'Z.. OO..Dit643 in all
correspondence.

Attchment
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 CHILDREN’S USE OF HEALTH
  CARE SERVICES WHILE IN
FOSTER CARE: NORTH DAKOTA




                    Inspector General

                      AUGUST 2004
                     OEI-07-00-00643
               Office of Inspector General
                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the department.

Office of Evaluation and Inspections
The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management
and program evaluations (called inspections) that focus on issues of concern to the
department, the Congress, and the public. The findings and recommendations contained
in the inspections reports generate rapid, accurate, and up-to-date information on the
efficiency, vulnerability, and effectiveness of departmental programs. The OEI also
oversees State Medicaid fraud control units, which investigate and prosecute fraud and
patient abuse in the Medicaid program.

Office of Investigations
The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. The OCIG imposes program exclusions and
civil monetary penalties on health care providers and litigates those actions within the
department. The OCIG also represents OIG in the global settlement of cases arising
under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops model compliance plans, renders advisory opinions on OIG sanctions to the
health care community, and issues fraud alerts and other industry guidance.
   A B S T R A C T




                      In response to concerns about the health care children in foster care are
                      receiving, we conducted a series of studies in eight States to assess
                      whether sampled children in foster care are receiving health care
                      services that fulfill Federal and State requirements. This study
                      determined that all 50 sampled children in the North Dakota foster care
                      program had Medicaid coverage and claims. Thirty-five sampled
                      children received their most recent required Early and Periodic
                      Screening, Diagnosis, and Treatment (EPSDT) examinations and 30 of
                      38 children required to receive dental services had their most recent
                      EPSDT dental service. We also found that some children waited
                      months after entering foster care to receive a comprehensive medical
                      examination recommended by the State. In addition, 9 of 48 foster care
                      providers (i.e., foster parents or residential care facility staff) reported
                      never receiving a medical history for the sampled child in their care,
                      and mental health needs were undocumented in the case plans for 12 of
                      the 34 sampled children receiving mental health services, both of which
                      are required to meet Federal requirements.

                      We recommend that the Administration for Children and Families
                      and the Centers for Medicare & Medicaid Services work with the
                      North Dakota Department of Human Services to address shortcomings.




    OEI-07-00-00643   CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E   IN   F O S T E R C A R E : N O R T H D A K O TA   i
   E X E C U T I V E                         S U M M A R Y


                      OBJECTIVE
                      To determine whether sampled children in the North Dakota foster care
                      program receive health care services.


                      BACKGROUND
                      Sections 472(h) and 1902(a)(10)(A)(i)(I) of the Social Security Act (the
                      Act) require States to provide Medicaid or Medicaid-equivalent coverage
                      to children eligible to receive Title IV-E funds. North Dakota is the
                      focus of this inspection and is one of a series of eight States chosen to
                      represent a diverse cross-section of foster care nationwide. All
                      Title IV-E children in the North Dakota foster care program are eligible
                      for Medicaid. Federal Early and Periodic Screening, Diagnosis, and
                      Treatment (EPSDT) guidelines require each State to make preventive
                      health care services available to Medicaid-eligible individuals under the
                      age of 21 and establish State guidelines regarding the intervals for
                      providing EPSDT examinations that meet reasonable standards of
                      medical and dental practice, as outlined in Sections 1902(a)(43) and
                      1905(r) of the Act.

                      This inspection is based on information gathered from multiple sources.
                      We reviewed Federal and State policies; analyzed child-specific
                      Medicaid claims data and case file documentation for 50 randomly
                      sampled children in the North Dakota foster care program; interviewed
                      foster care providers (i.e., foster parents or residential care facility
                      staff), caseworkers responsible for children in our sample, State child
                      welfare and medical services staff, Child Welfare Program Directors
                      representing 4 Native American Nations, and other State agency
                      officials. Our analysis focused on a 3-year Medicaid claims history for
                      the period November 1, 1999 to November 1, 2002.


                      FINDINGS
                      All 50 sampled children had Medicaid coverage and claims for
                      health care services.
                      Each of the 50 sampled children was enrolled in the Medicaid program,
                      had a Medicaid card or number, and had at least 1 Medicaid claim
                      during the period covered by our study.




    OEI-07-00-00643   CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E   IN   F O S T E R C A R E : N O R T H D A K O TA   ii
E X E C U T I V E              S U             M M A R Y


                   Thirty-five of the fifty sampled children received their most recent
                   EPSDT medical examination, within State-established frequency
                   guidelines.
                   Overall, 35 sampled children received their most recent EPSDT medical
                   examination, within State-established guidelines, based on their age
                   and length of time in foster care. Six children who did not receive an
                   EPSDT examination remained in compliance with the State guidelines
                   based on their age or the date they entered foster care. However, eight
                   children who should have received an EPSDT examination, did not.
                   Some foster care providers stated that they did not believe EPSDT
                   examinations were necessary because the child was receiving care for a
                   specific condition. The only systematic notification foster care providers
                   received regarding required EPSDT services was an annual letter from
                   the Division of Medical Services reminding them that EPSDT services
                   are available.
                   Thirty of thirty-eight sampled children required to receive an EPSDT
                   dental examination received their most recent EPSDT dental
                   examination, within State-estabished frequency guidelines.
                   The EPSDT frequency guidelines adopted by North Dakota require that
                   all children over 3 years of age receive dental services every 6 months.
                   Thirty-eight of the sampled children were over age 3 and, because they
                   had been in foster care more than 6 months, were required to have
                   received dental services. Thirty of these thirty-eight children received
                   their most recent required dental service within State-established
                   EPSDT frequency guidelines. Based on the State-established
                   guidelines, the 38 children should have received at least 121 dental
                   services. However, only 64 of these 121 dental services were received
                   timely, and 57 were received outside the required timeframe or not
                   received at all. Thirteen of the forty-nine caseworkers for children in
                   our sample reported a severe shortage of dentists willing to treat
                   Medicaid patients.
                   Some sampled children waited months after entering foster care to
                   receive a comprehensive medical examination recommended by the
                   State.
                   Federal law requires States to ensure that all children in foster care are
                   provided quality services that protect their health. North Dakota’s
                   foster care policy recommends that children receive an initial medical
                   examination upon entry into foster care. We found that some sampled
                   children waited months before receiving an EPSDT medical

 OEI-07-00-00643   CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E   IN   F O S T E R C A R E : N O R T H D A K O TA   iii
E X E C U T I V E              S U             M M A R Y


                   examination. While 31 of 38 sampled children who entered foster care
                   during the period covered by our study received an EPSDT medical
                   examination, they waited 2 to 435 days from entry before their health
                   needs were comprehensively assessed. The lack of a specific
                   requirement for an initial medical examination may have contributed to
                   the remaining seven children who entered foster care during the study
                   period not having received an EPSDT medical examination, despite
                   having been in foster care between 106 and 715 days.
                   Mental health needs were not documented for 12 of 34 sampled
                   children receiving mental health services, as required.
                   In meeting Federal requirements to ensure that children in foster care
                   placements are provided quality services that protect their health,
                   North Dakota requires that individual case plans for children in foster
                   care include their mental health needs. Our case file and claims data
                   review indicated that 34 of the 50 sampled children received mental
                   health services during the period covered by our study. However, the
                   need for mental health services was not documented in the case plans
                   for 12 of these 34 children.
                   Nine of forty-eight foster care providers reported never receiving
                   medical information for the sampled children in their care.
                   Federal law requires that the health records of children in foster care be
                   reviewed, updated, and supplied to the foster care provider at the time
                   of placement. Of the 48 foster care providers we interviewed, 9 reported
                   never receiving medical information for the sampled children in their
                   care. However, caseworkers for eight of these nine children reported
                   receiving or compiling medical information on the sampled children.


                   RECOMMENDATIONS
                   The Administration for Children and Families (ACF) should work with
                   the North Dakota Division of Children and Family Services to:
                              Examine how initial comprehensive medical examinations
                              for children entering foster care are being provided.
                              Ensure case plans reflect mental health needs, as required.

                              Promote the importance of caseworkers obtaining medical
                              information for children in foster care, and supplying the
                              foster care providers with the information, in accordance
                              with Federal requirements.


 OEI-07-00-00643   CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E   IN   F O S T E R C A R E : N O R T H D A K O TA   iv
E X E C U T I V E              S U             M M A R Y


                   The Centers for Medicare & Medicaid Services (CMS) should work with
                   the North Dakota Division of Medical Services to:
                              Develop a method for notifying foster care providers when
                              required EPSDT services are due.
                              Increase the number of dentists accepting Medicaid in
                              North Dakota.

                   ACF and CMS should work with the North Dakota Department of
                   Human Services to coordinate State agency efforts to:
                              Educate caseworkers and foster care providers regarding the
                              importance and availability of EPSDT medical
                              examinations.
                              Ensure caseworkers and foster care providers understand
                              the difference between comprehensive EPSDT examinations
                              and medical examinations for specific health conditions.
                              Educate caseworkers and foster care providers on State
                              EPSDT frequency guidelines for dental services.


                   AGENCY COMMENTS
                   ACF noted that it is working with the North Dakota Department of
                   Human Services to promote the importance of obtaining medical
                   histories and providing medical information to foster care providers and
                   that these issues are being addressed in the Program Improvement Plan
                   developed in response to a Child and Family Services Review. It also
                   notes that only 79 percent of the cases reviewed during the on-site
                   portion of the Child and Family Services Review substantially achieved
                   the outcome measure which determines if children receive adequate
                   services to meet their physical and mental health needs.

                   CMS generally concurred with our recommendations, but clarified that
                   the recommendations should be carried out by joint action of the
                   North Dakota Divisions of Medical Services and Children and Family
                   Services. CMS stated that its regional office staff is available to provide
                   technical assistance to both Divisions, as appropriate.




 OEI-07-00-00643   CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E   IN   F O S T E R C A R E : N O R T H D A K O TA   v
   T A B L E        O F            C O N T E N T S



           ABSTRACT ....................................................... i


           E X E C U T I V E S U M M A R Y . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii


           INTRODUCTION ................................................ 1



           FINDINGS ....................................................... 9
                      Medicaid coverage for children in foster care .....................................9

                      Receipt of EPSDT medical examinations..........................................10

                      Receipt of EPSDT dental services .....................................................11

                      Comprehensive medical examinations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

                      Documentation and receipt of mental health services .....................13

                      Medical information for foster care providers ..................................14



           R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15



           A P P E N D I C E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
                      A: Demographic Characteristics of Sampled Children....................17

                      B: Medicaid Claims for Sampled Children . . . . . . . . . . . . . . . . . . . . . . . . . . 19

                      C: EPSDT Services for Sampled Children . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

                      D: Agency Comments - ACF . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

                      E: Agency Comments - CMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27



           A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
   I N T R O D U C T I O N




                      OBJECTIVE
                      To determine whether sampled children in the North Dakota foster care
                      program receive health care services.


                      BACKGROUND
                      There are an estimated 542,000 children in foster care nationwide,1
                      many of whom are reportedly in poor health. To determine if children
                      in foster care are receiving mandated health care services, we selected
                      eight States for review.2 The States were chosen to represent a diverse
                      cross-section of foster care nationwide. North Dakota was chosen for its
                      small population size, geographic location, rural setting, county-
                      administered child welfare system, Native American population, and
                      fee-for-service provision of Medicaid services. North Dakota had
                      1,129 children in foster care at the end of fiscal year (FY) 2000, based on
                      the most recent Federal data available at the time of our study.3 The
                      Administration for Children and Families (ACF) has regulatory
                      oversight of the Title IV-E foster care program, including approval of
                      State plans to ensure State foster care programs are operating within
                      Federal guidelines. Within the North Dakota Department of Human
                      Services, the Division of Children and Family Services manages the
                      Title IV-E foster care program.

                      Compared with other children from the same socioeconomic
                      backgrounds, children in foster care suffer much higher rates of serious
                      physical and psychological problems.4 Vision, hearing, and dental
                      problems are prevalent in the foster care population, and physical

                      1 Department of Health and Human Services, Administration for Children and Families,
                       Adoption and Foster Care Analysis and Reporting System Report for the period ending
                       September 30, 2001. Retrieved April 5, 2004 from
                       http://www.acf.hhs.gov/programs/cb/publications/afcars/report8.htm.
                      2 Other States selected for review are Georgia, Illinois, Kansas, New Jersey, New York,
                       Oregon, and Texas.
                      3 Department of Health and Human Services, Administration for Children and Families,
                       Foster Care: Entries, Exits, and In Care on the Last Day. The 1,129 children in foster
                       care include children in both the Title IV-E and non-Title IV-E foster care programs.
                       Retrieved April 5, 2004 from http://www.acf.dhhs.gov/programs/cb/dis/tables/entryexit2002.htm.
                      4 Casey Family Programs, National Center for Resource Family Support, Health Care
                       Issues for Children in Foster Care, March 25, 2002. Retrieved October 17, 2002 from
                       http://www.casey.org/cnc/documents/health care issues.pdf.



    OEI-07-00-00643   CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E   IN   F O S T E R C A R E : N O R T H D A K O TA   1
I N T R O D        U C T      I O N


                    health problems (e.g., delayed growth and development, malnutrition,
                    and asthma) affect 30 to 40 percent of children in the child welfare
                    system.5
                    Children in foster care have greater health care needs, yet many foster
                    care providers (we use the term “foster care provider” to refer to foster
                    parents or residential care facility staff) reported having difficulty
                    finding health care professionals who were willing to care for these
                    children.6 The health care available for children in foster care is often
                    characterized by lack of access; lack of information sharing among
                    health care professionals; and long delays in obtaining services.7
                    Furthermore, studies have shown that low percentages of children in
                    foster care are actually receiving services. Therefore, concern exists
                    that children with the greatest health care needs may not be receiving
                    needed services.

                    The Early and Periodic Screening, Diagnosis, and Treatment (EPSDT)
                    program is designed to screen for, diagnose, and treat medical
                    conditions in Medicaid-eligible individuals under age 21 that might
                    otherwise go undetected or untreated. However, a General
                    Accountability Office report released in July 2001 states that available
                    data from short range studies show that the percentage of children in
                    the general population receiving EPSDT services is very low.8
                    Periodic dental care is also included as part of EPSDT, and must be
                    performed by a dentist. North Dakota EPSDT dental examinations are
                    required for every child in accordance with the frequency guidelines
                    developed by the State. Dental frequency guidelines must be
                    established by the State after consultation with recognized dental
                    organizations involved in child health care.




                    5 Factsheet: The Health of Children in Out of Home Care. Child Welfare League of
                     America. Retrieved October 17, 2002 from
                     http://www.cwla.org/programs/health/healthcarecwfact.htm.
                    6 Chernoff, R. et. al., Assessing the Health Status of Children Entering Foster Care,
                     Pediatrics, 93:2, 1994.
                    7 Health Care of Young Children in Foster Care. Pediatrics, 109:3, 2002. Retrieved
                     May 12, 2003 from http://www.aap.org/policy/re0054.html.
                    8 Medicaid: Stronger Efforts Needed to Ensure Children’s Access to Health Screening
                     Services. General Accountability Office, GAO-01-749, July 2001.



 OEI-07-00-00643    CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E   IN   F O S T E R C A R E : N O R T H D A K O TA   2
I N T R O D        U C T       I O N


                    Medicaid for Children in Foster Care
                    All children in the North Dakota Title IV-E foster care program are
                    eligible for Medicaid. Sections 472(h) and 1902(a)(10)(A)(i)(I) of the
                    Social Security Act (the Act) require States to provide Medicaid or
                    equivalent health insurance coverage to all children in foster care,
                    including those eligible to receive Title IV-E foster care program
                    maintenance funds. Federal EPSDT guidelines require each State to
                    make comprehensive and preventive child health services available to
                    Medicaid-eligible individuals under the age of 21, as outlined in
                    Sections 1902(a)(43) and 1905(r) of the Act. Within a broad framework,
                    each State establishes its own Medicaid eligibility standards;
                    determines the type, amount, duration, and scope of Medicaid services;
                    sets the rate of payment for services to Medicaid patients; and
                    administers its own Medicaid program.9
                    In FY 2000, Medicaid payments for children in foster care nationwide
                    totalled over $3.3 billion.10 North Dakota Medicaid expenditures for
                    this population totalled approximately $10.7 million in 2000.11 The
                    Centers for Medicare & Medicaid Services (CMS) is responsible for the
                    Federal oversight of individual State Medicaid programs. Within the
                    North Dakota Department of Human Services, the Division of Medical
                    Services manages the State Medicaid program.
                    North Dakota Health Tracks
                    In accordance with Federal law, participation in the Medicaid program
                    requires States to establish EPSDT services for all Medicaid-eligible
                    individuals under 21 years of age.12 State EPSDT programs must
                    provide medical, hearing, vision, and dental screenings, and other
                    necessary health care and treatment at intervals established by the
                    State that meet reasonable standards of practice published by




                    9 Retrieved September 12, 2002 from http://cms.hhs.gov/medicaid/mover.htm
                      and http://cms.hhs.gov/medicaid/eligibility/criteria.asp.
                    10 Department of Health and Human Services, Medicaid Statistical Information System
                      (MSIS) Report Fiscal Year 2000: All States. Retrieved August 6, 2003, from
                       http://www.cms.gov/medicaid/msis/00nd.pdf.
                    11 Department of Health and Human Services, Medicaid Statistical Information System
                      (MSIS) Report Fiscal Year 2000: North Dakota. Retrieved April 5, 2004, from
                       http://www.cms.gov/medicaid/msis/00nd.pdf.
                    12 Section 1905(r) of the Social Security Act.




 OEI-07-00-00643    CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E   IN   F O S T E R C A R E : N O R T H D A K O TA   3
I N T R O D        U C T       I O N

                  recognized health care organizations. North Dakota has established the
                  Health Tracks program to meet Federal EPSDT requirements.

                  The current frequency schedule established for the Health
                  Tracks program requires a complete physical examination
                  at 1, 2, 4, 6, 9, 12, 15, and 18 months of age; during each year that the
                  child is 2, 3, 4, 5, 6, 8, and 10 years of age; and during each year of the
                  child’s life thereafter through the age of 21. The Health Tracks program
                  does not require EPSDT services for children 7 and 9 years of age.
                  Health Tracks program guidelines require that vision and hearing
                  screenings be included as part of every EPSDT physical examination for
                  all children over 6 years of age. Health Tracks also requires a complete
                  dental examination every 6 months, separate from the medical
                  examination, for all children over 3 years of age.

                  North Dakota requires State child welfare staff (e.g., eligibility
                  specialists or caseworkers) to inform the guardians of all Medicaid-
                  eligible children of the availability of health services and to document
                  that such services were offered. Foster care providers are generally
                  responsible for ensuring the children in their care receive these
                  examinations. North Dakota recommends, but does not require, that
                  children receive a medical examination upon entry into foster care in
                  addition to the health care services provided in accordance with the
                  Health Tracks frequency guidelines.13
                  While Section 1905(r)(1)(B)(i) of the Social Security Act requires that
                  mental health development be included in EPSDT screenings,
                  North Dakota imposes no specific requirements for mental health
                  screenings or the provision of mental health services for children in
                  foster care beyond requiring that legal custodians provide for the
                  physical, mental, and moral welfare of the children in their custody.14
                  Case plans are required to address clinically diagnosed disabling
                  conditions.15
                  Section 471(a)(22) of the Act requires States to develop a State plan that
                  includes standards to ensure that children in foster care placements in
                  public and private agencies are provided quality services that protect


                  13 North Dakota Department of Human Services (NDDHS), Service Chapter 623 05 05-60.

                  14 NDDHS 624-05-05-11.

                  15 NDDHS 624-05-05-20.




OEI-07-00-00643   CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E   IN   F O S T E R C A R E : N O R T H D A K O TA   4
I N T R O D        U C T      I O N


                    their safety and health. Sections 422(b)(10)(B)(ii) and 475(5)(D) of the
                    Act require procedures to ensure that health records for children in
                    foster care be reviewed, updated, and supplied to the foster care
                    provider at the time of placement. According to Section 475(1)(C) of the
                    Act, health records should include, to the extent available and
                    accessible, the names and addresses of the child’s health care
                    professionals, a record of the child’s immunizations, the child’s known
                    medical problems, the child’s medications, and any other relevant
                    health information concerning the child determined to be appropriate by
                    the State agency.

                    To meet Federal requirements, North Dakota requires that a
                    permanency plan (case plan) addressing each child’s medical and
                    mental health needs, and a record of the child’s immunizations and
                    known medical problems, be developed within 30 days of a child’s entry
                    into foster care. The case plans are required to be reviewed and
                    updated quarterly and should include all available health records. The
                    health information contained in the case plans is to be supplied to the
                    foster care providers.16


                    METHODOLOGY
                    This inspection focused on the receipt of health care and dental services
                    that meet EPSDT guidelines; the receipt of mental health services; and
                    the provision of medical information to foster care providers. This study
                    did not address follow-up care or the appropriateness of ongoing health
                    care in meeting the needs of children in foster care. The inspection is
                    based on information gathered from multiple sources: reviews of
                    Federal and State policies; child-specific Medicaid claims data for
                    50 randomly sampled children; case file documentation for 49 of the
                    50 sampled children (case file information for 1 sampled child was not
                    provided); interviews with caseworkers and foster care providers for the
                    49 sampled children for which case files were received; and interviews
                    with North Dakota State agency and Native American Nation officials.
                    Reasons for State Selection
                    North Dakota was selected for its small population size, geographic
                    location, rural setting, county-administered child welfare system,




                    16 NDDHS 624-05-05-17.




 OEI-07-00-00643    CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E   IN   F O S T E R C A R E : N O R T H D A K O TA   5
I N T R O D        U C T      I O N


                    Native American population, and fee-for-service provision of Medicaid
                    services.
                    Sample
                    Children who met the following criteria were included in the study
                    population: (1) were in foster care on January 22, 2003; (2) resided in
                    North Dakota; (3) were eligible for Title IV-E foster care program
                    maintenance funds; and (4) had been in continuous out-of-home foster
                    care placements for at least 6 months. The Division of Children and
                    Family Services provided us with a list of the 381 children who met
                    these criteria. We selected a simple random sample of 50 children from
                    this list. Appendices A, B, and C provide information on the children
                    included in our study, and the services they received.
                    Review of Policies, Medicaid Data, and Case File Documentation
                    Policy Review -- We reviewed Federal and State foster care, Medicaid,
                    and EPSDT program policies. The North Dakota Health Tracks
                    program meets Federal EPSDT requirements. Therefore, we used
                    Health Tracks guidelines to determine whether children in foster care
                    were receiving required EPSDT medical and dental services timely.
                    Medicaid Claims Data Review -- The Division of Medical Services provided
                    us with up to 3 years of Medicaid claims data for each of the children in
                    our sample. The data included Medicaid claims for physician, dental,
                    pharmaceutical, and mental health services paid between
                    November 1, 1999 and November 1, 2002, the most recent 3-year period
                    for which claims data was available. We paid particular attention to the
                    types of services provided and service dates. We included only those
                    Medicaid claims for services provided after the child’s most recent entry
                    into foster care. For sampled children entering foster care on or after
                    November 1, 1999, we analyzed Medicaid claims data from the date
                    they entered foster care through November 1, 2002. All Medicaid
                    services provided to sampled children were included in our analysis.
                    However, sampled children who had been in foster care less than
                    6 months during our claims window were not considered out of
                    compliance if they had not received the EPSDT service. Appendix B
                    provides information regarding the Medicaid services each sampled
                    child received.
                    Case File Documentation -- We requested case file documentation from
                    the Division of Children and Family Services local offices for all of the
                    children in our sample, including documentation of medical, dental, and
                    mental health services provided, the child’s medical history, the child’s

 OEI-07-00-00643    CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E   IN   F O S T E R C A R E : N O R T H D A K O TA   6
I N T R O D        U C T      I O N


                    initial and most recent case plan, duration of the child’s stay in foster
                    care, and information regarding the child’s health and general well-
                    being. We received and reviewed information for 49 children; despite
                    repeated requests, we were not provided with the documentation for
                    1 child.

                    We also received and reviewed caseworker or residential treatment
                    center notes for some of the sampled children indicating that the
                    children had been referred for or scheduled to receive medical, dental, or
                    mental health services or that they had actually received the services.
                    However, in the absence of a Medicaid claim or other supporting
                    documentation (e.g., an EPSDT form signed by a physician or other
                    health care professional), we were unable to include the noted services
                    in our analysis.
                    Interviews
                    Foster Care Provider Interviews -- We conducted structured interviews
                    with 48 of the foster care providers (i.e., foster parents or residential
                    care facility staff) responsible for the children in our sample (8 in person
                    and 40 by telephone) between April 15, 2003 and May 29, 2003. We
                    were unable to interview two foster care providers because we were
                    unable to obtain the case file containing contact information for one
                    sampled child and the caseworker failed to provide the foster parent
                    contact information for another child within the timeframe of our study.
                    The interviews with foster care providers focused on the Medicaid
                    program and the services available, the training they received related to
                    the health and well-being of children, and their experiences procuring
                    health care services for the children in our sample.
                    Caseworker Interviews -- We conducted structured telephone interviews
                    with 49 of the caseworkers assigned to the children in our sample
                    between March 27, 2003 and May 22, 2003. We did not receive the case
                    file for one child and therefore lacked the information needed to contact
                    the caseworker. Each of these interviews focused on the caseworker’s
                    understanding of the Medicaid program and the services available, the
                    training they received related to the health and well-being of children,
                    their experiences accessing health care services, and any barriers to
                    obtaining needed health care. Each caseworker spoke specifically about
                    the sampled child’s case, and generally about his or her own experiences
                    working in foster care. We analyzed the caseworkers’ responses and
                    compared them to those of the foster care providers, noting any
                    consensus or disagreement within and between the two groups.


 OEI-07-00-00643    CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E   IN   F O S T E R C A R E : N O R T H D A K O TA   7
I N T R O D        U C T      I O N


                    State Agency and Native American Nation Officials -- To enhance our
                    understanding of the State’s foster care and Medicaid programs, we
                    consulted, both in person and by telephone, with State staff and Child
                    Welfare Program Directors for the Spirit Lake Sioux, Standing Rock
                    Sioux, Three Affiliated Tribes, and Turtle Mountain Chippewa Nations.

                    This inspection was conducted in accordance with the Quality
                    Standards for Inspections issued by the President’s Council on Integrity
                    and Efficiency.




 OEI-07-00-00643    CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E   IN   F O S T E R C A R E : N O R T H D A K O TA   8
   F I N D I N G S

All 50 sampled children had Medicaid coverage                 Federal law requires that all
           and claims for health care services.               children eligible for the
                                                              Title IV-E foster care program be
                      provided Medicaid or Medicaid-equivalent services.17 In North Dakota,
                      all children in foster care are eligible for Medicaid, including Early and
                      Periodic Screening, Diagnosis, and Treatment (EPSDT) services.18
                      Each of the 50 sampled children had Medicaid coverage and at least
                      1 Medicaid claim for health care services during the 3-year period
                      covered by our study. Table 1 details the various types of Medicaid-
                      covered services and the number of claims by type of service provided
                      for the 50 sampled children.

                              Table 1: Num ber and Type of M edicaid Claim s for 50
                                              Sam pled Children
                                                                                 Number of
                                                                                                                             Total Number of
                                  Claim Type                                  Children with at
                                                                                                                                 Claims
                                                                              Least One Claim
                            Physician Office                                         46                                                  407
                           Prescription Drug                                         45                                                  1001
                              Laboratory                                             30                                                  139
                                Dental                                               33                                                  346
                             Hospital/ASC*                                           30                                                  443
                         Optometry/Audiology                                         30                                                  157
                             Mental Health                                           34                                                  617
                              Diagnostic                                             9                                                    27
                         Physical/Occupational
                                                                                                   8                                          133
                               Therapy
                               Supplies                                                           18                                     227
                            Transportation                                                        13                                      60
                         Early Intervention**                                                      2                                      21
                         Case Managem ent***                                                      22                                     449
                          M edication Review                                                      15                                      94
                                 Total                                                                                                   4121
                      * Ambulatory Surgical Center which includes emergency room visits.
                      ** Includes respite care, speech and language, nursing, nutritional, and developmental services.
                        Source: Office of Evaluation and Inspections, analysis of North Dakota Medicaid claims
                        data 2003.

                      ***Includes 41 Medicaid claims for Targeted Case Management. The remaining Case Management claims are
                        for child protective services and residential care services case management.


                        A detailed list of selected services for each of the 50 sampled children is located in Appendix B.



                      17 Section 1902(a)(43) of the Social Security Act.

                      18 NDDHS 623-05-05-63.




    OEI-07-00-00643   CHILDREN’S USE    OF   H E A LT H C A R E S E R V I C E S W H I L E   IN   F O S T E R C A R E : N O R T H D A K O TA         9
F   I N D I N G        S




  Thirty-five of fifty sampled children received              EPSDT medical examinations are
their most recent EPSDT medical examination,                  intended to screen for and identify
                                                              health care needs that may not be
within State-established frequency guidelines.
                                                              detected during a medical
                      examination for a specific condition. All age-appropriate EPSDT
                      examinations must be completed in accordance with the State-established
                      EPSDT frequency guidelines. Overall, 35 sampled children received their
                      most recent EPSDT medical examination, within State-established
                      guidelines. Six sampled children had been in foster care less than the time
                      period specified by the State frequency guidelines for their age group and
                      were not required to receive EPSDT services during the period covered by
                      our study. However, based on their age and length of time in foster care,
                      and the State EPSDT frequency guidelines, eight children who should have
                      received an EPSDT medical examination did not.

                      Based on their age and the length of time they were in foster care, 25 of the
                      50 sampled children were required to receive at least 1 EPSDT medical
                      examination during the period covered by our review. Collectively, these
                      25 children were required to receive 49 EPSDT examinations. However,
                      only 30 of these 49 required examinations were received.

                      Caseworkers or foster care providers for sampled children indicated that
                      some EPSDT examinations were not performed because they believed them
                      to be unnecessary. Some reported that the children were receiving routine
                      medical care through their primary care physicians or the residential
                      treatment centers in which some children were placed. Other caseworkers
                      and foster care providers reported the children had recently been treated
                      for a specific health care problem. Some children missed required EPSDT
                      screenings because their caseworkers or foster care providers believed no
                      services were necessary during the required times.

                      The lack of systematic reminders also may be critical in explaining why
                      children did not receive required EPSDT examinations. In accordance with
                      State foster care policy, all children entering foster care must be made
                      aware of Health Tracks services. However, no systematic or standardized
                      monitoring is done to ensure children actually receive the required Health
                      Tracks services. Further, foster care providers are not systematically
                      notified of services that are due or lacking. The only notification foster care
                      providers received regarding EPSDT services was an annual letter from the
                      Division of Medical Services reminding them that EPSDT services are
                      available.


    OEI-07-00-00643   CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E   IN   F O S T E R C A R E : N O R T H D A K O TA   10
 F   I N D I N G        S



        Thirty of thirty-eight sampled children             The EPSDT frequency guidelines
          required to receive an EPSDT dental               adopted by North Dakota require
                                                            that all children over 3 years of age
examination received their most recent EPSDT
                                                            receive dental services at least every
  dental examination, within State-established
                                                            6 months. Thirty-eight of the
                          frequency guidelines.             sampled children had been in foster
                       care at least 6 months during the period covered by our study. Thirty of
                       these thirty-eight children received their most recent required dental
                       service in accordance with the State-established EPSDT frequency
                       guidelines.19 Two of the thirty-eight children had received a dental
                       service at some time since entering foster care but did not receive their
                       most recent service in accordance with the State-established frequency
                       guidelines. Six children had received no EPSDT dental services.
                       Overall, the 38 children should have received at least 121 dental
                       services to meet the State-established EPSDT guidelines. Sixty-four of
                       these one hundred twenty-one services were received timely, and
                       57 were received outside the required timeframe or not received at all.

                       EPSDT dental services were not required during our study period for
                       the remaining 11 sampled children. Six of these eleven children were
                       under age 3 at the end of the claims window and not required to receive
                       EPSDT dental services based on the frequency guideline. Five of the
                       eleven were in foster care less than 6 months during the period covered
                       by our Medicaid claims (i.e., the child entered foster care between
                       May 1, 2002 and July 22, 2002).

                       There are a variety of reasons children in foster care may not have
                       received required EPSDT dental services. Twenty-one of the
                       forty-nine caseworkers and 23 of the 48 foster care providers were
                       unfamiliar with the EPSDT program or unaware of the dental
                       frequency guidelines. Thirteen of the forty-nine caseworkers
                       interviewed reported a severe shortage of dentists willing to treat
                       Medicaid patients, which may contribute to foster care providers’
                       difficulty in accessing dental services. In addition, 31 caseworkers and
                       18 foster care providers reported that dentists willing to treat Medicaid
                       patients had long waiting lists for appointments and that many dentists
                       were not accepting new Medicaid patients.


                       19 Recent dental services include dental services provided during the last 6 months of our
                            Medicaid claims data or services provided in the last 6-month period based on the State
                            EPSDT frequency guidelines.



     OEI-07-00-00643   CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E   IN   F O S T E R C A R E : N O R T H D A K O TA   11
F   I N D I N G        S



      Some sampled children waited months after                Section 471(a)(22) of the Act
              entering foster care to receive the              requires that States ensure all
                                                               children in foster care are
            comprehensive medical examination
                                                               provided quality services that
                    recommended by the State.
                                                               protect their health.
                      North Dakota State foster care policy recommends that children receive
                      an initial medical examination upon entry into foster care.20 We found
                      that some children wait months before their health needs are
                      comprehensively assessed. Thirty-eight sampled children entered foster
                      care during the period covered by our Medicaid claims
                      (November 1, 1999 to November 1, 2002). Thirty-one of these children
                      received an EPSDT examination, which we used as evidence of receipt
                      of a comprehensive medical examination, with at least two children
                      waiting over 430 days to receive their first examination (see Table 2).
                             T a b le 2 : D a y s t o F ir s t C o m p r e h e n s i v e E P S D T M e d i c a l
                                                            E x a m i n a t io n
                                                                                      D a y s to F ir s t                       D a y s to F ir s t
                                                   N um ber of
                                                                                     C o m p r e h e n s iv e                  C o m p r e h e n s iv e
                              A ge                 C h ild r e n in
                                                                                     M e d ic a l E x a m                      M e d ic a l E x a m
                                                   A ge G rou p
                                                                                          (R a n g e )                             (M e d ia n )
                       0 - 6 m o n th s                       3                                  2 - 117                                       27
                      7 - 2 3 m o n th s                      1                                    127                                        127
                        2 - 5 yea rs                          8                                  22 - 431                                     6 7 .5
                        6 - 9 yea rs                          7                                  6 - 435                                      118
                      1 0 - 2 1 yea rs                        12                                 10 - 203                                     113
                           T o ta l                           31                                 2 - 435                                      109

                      Source: Office of Evaluation and Inspections, analysis of Medicaid claims data and
                      case file documentation.

                      Initial medical examinations being recommended versus required may
                      have contributed to the remaining seven children who entered foster
                      care during the study period not having received an EPSDT medical
                      examination, despite having been in foster care between 106 and
                      715 days (see Table 3).




                      20 NDDHS 623-05-05-63.




    OEI-07-00-00643   CHILDREN’S USE    OF   H E A LT H C A R E S E R V I C E S W H I L E   IN   F O S T E R C A R E : N O R T H D A K O TA            12
F   I N D I N G        S




                           Table 3: Days in Foster Care Without a Comprehensive EPSDT Medical Exam

                                                  Number of                    Days Without                                     Days Without
                                 Age              Children in                 Comprehensive                                 Comprehensive Medical
                                                  Age Group                 Medical Exam (Range)                               Exam (Median)

                           0 - 6 months                     0                                     0                                           0
                           7 - 23 months                    0                                     0                                           0
                             2 - 5 years                    1                                   113                                          113
                             6 - 9 years                    2                              155 - 444                                         299
                           10 - 21 years                    4                              106 - 715                                         208
                                Total                       7                              106 - 715                                         193
                           Source: Office of Evaluation and Inspections, analysis of Medicaid claims data and case file
                           documentation.




      Mental health needs were not documented for                 Section 475(1)(B) of the Act
        12 of 34 sampled children receiving mental                requires that a case plan be
                       health services, as required.              developed for each child that
                                                                  enters foster care, and that the
                      plan ensures that services address the child’s needs, including mental
                      health, while the child is in foster care. North Dakota requires that
                      individual case plans for children in foster care include their mental
                      health needs.21 Further, case plans must address clinically diagnosed
                      disabling conditions (e.g., attention deficit or hyperactive disorders,
                      conduct disorders, emotional disturbances, and mental retardation).22
                      Each child in foster care is to be provided with needed mental health
                      services identified in his/her case plan.

                      Thirty-four of the fifty sampled children received at least one mental
                      health service during the time period covered by our review. The
                      receipt of mental health services were documented by Medicaid claims
                      for 33 of the sampled children and by case file documentation for
                      1 child. However, the need for mental health services was not
                      documented in the case plans for 12 of the 34 sampled children who
                      received mental health services. A lack of documentation in the case



                      21 NDDHS 624-05-05-20.

                      22 NDDHS 624-05-05-20.




    OEI-07-00-00643   CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E   IN   F O S T E R C A R E : N O R T H D A K O TA         13
F    I N D I N G        S


                       plans could result in children not continuing to receive services. If the
                       child is placed with another foster care provider or assigned a new
                       caseworker unaware of his/her mental health needs, services may not be
                       continued without documentation.



      Nine of the forty-eight foster care providers           Section 475(5)(D) of the Act
                                                              requires the health records of
    reported never receiving medical information
                                                              children in foster care be
                      for the children in their care.
                                                              reviewed, updated, and supplied
                       to the foster care provider with whom the child is placed at the time of
                       each placement in foster care. North Dakota requires that the health
                       information contained in the case plans be supplied to foster care
                       providers.23 However, of the 48 foster care providers we interviewed,
                       9 reported never receiving medical information for the sampled children
                       in their care. Caseworkers for eight of the nine children placed with
                       these foster care providers indicated they had compiled or received some
                       medical information for the sampled children. This indicates a problem
                       in the communication of medical information from caseworkers to foster
                       care providers.

                       Some of the foster care providers who did not receive medical
                       information when the child was placed with them were unaware that
                       they should have it or could ask for it. While we do not know why
                       medical information contained in these case files was not given to the
                       foster care providers, failure to provide available medical information to
                       foster care providers could result in children’s medical needs not being
                       met.




                       23 NDDHS 624-05-05-17.




     OEI-07-00-00643   CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E   IN   F O S T E R C A R E : N O R T H D A K O TA   14
   R E C O M M E N D A T I O N S


                      RECOMMENDATIONS
                      States are required to ensure that all children in foster care are
                      provided quality health care services that protect their health. The
                      Early and Periodic Screening, Diagnosis, and Treatment (EPSDT)
                      program is intended to detect various health needs. However, if
                      children do not receive the required services or do not receive those
                      services timely, their health needs may go undetected and untreated.

                      The Administration for Children and Families (ACF) should work with
                      the North Dakota Division of Children and Family Services to:
                                 Examine how initial comprehensive medical examinations
                                 for children entering foster care are provided.
                                 Ensure case plans reflect mental health needs, as required.

                                 Promote the importance of caseworkers obtaining medical
                                 information for children in foster care and supplying foster
                                 care providers with the information, in accordance with
                                 Federal requirements.

                      The Centers for Medicare & Medicaid Services (CMS) should work with
                      the North Dakota Division of Medical Services to:
                                 Develop a method for notifying foster care providers of when
                                 required EPSDT services are due.
                                 Increase the number of dental providers accepting Medicaid
                                 in North Dakota.

                      ACF and CMS should work with the North Dakota Department of
                      Human Services to coordinate State agency efforts to:
                                 Educate caseworkers and foster care providers regarding the
                                 importance and availability of EPSDT medical
                                 examinations.
                                 Ensure caseworkers and foster care providers understand
                                 the difference between comprehensive EPSDT examinations
                                 and medical examinations for specific health conditions.
                                 Educate caseworkers and foster care providers on State
                                 EPSDT frequency guidelines for dental services.




    OEI-07-00-00643   CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E   IN   F O S T E R C A R E : N O R T H D A K O TA   15
R   E C O        M M E N D A T                 I O N               S




                      AGENCY COMMENTS
                      ACF noted that it is working with the Department of Human Services to
                      promote the importance of obtaining medical histories and providing
                      medical information to foster care providers and that these issues are
                      being addressed in the Program Improvement Plan developed in
                      response to a Child and Family Services Review. They also note that
                      only 79 percent of the cases reviewed during the on-site portion of the
                      Child and Family Services Review substantially achieved the outcome
                      measure which determines if children receive adequate services to meet
                      their physical and mental health needs.

                      CMS generally concurred with our recommendations but clarified that
                      the recommendations should be carried out by joint action of the
                      North Dakota Divisions of Medical Services and Children and Family
                      Services. CMS stated that its regional office staff is available to provide
                      technical assistance to both Divisions, as appropriate.




    OEI-07-00-00643   CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E   IN   F O S T E R C A R E : N O R T H D A K O TA   16
                   A P P E N D I X                     ~            A

                                   Demographic Characteristics of Sampled Children

                     The table below provides the demographic characteristics of each of the 50 sampled
                     children and his or her foster care placement history as of May 2003.


                                                     Months Since                  Placements                                                    Caseworkers        Months
                     Placement      Entries into                                                             Months Since Last
ID   Sex   Age                                     Foster Care Entry               Since Last                                                  Since Last Entry Caseworker With
                      Setting      Foster Care (1)                                                            Placement (4)
                                                          (2)                       Entry (3)                                                         (5)           Case (6)
 1   F         17    Therapeutic        1                      15                         2                                4                              1           18
 2   M         17    Residential        2                      89                         29                               6                              4           43
 3   F         17    Residential        2                      14                         2                                10                             4           14
 4   M         16    Therapeutic        1                      10                         2                                4                              1           13
 5   M         15      Kinship          3                      26                         10                               12                             4            6
 6   M         15    Residential        2                      12                         2                                8                              1           12
 7   M         15    Residential         *                     42                         1                                42                             2           24
 8   F         15    Residential        1                      28                         2                                9                              *            8
 9   F         13      Family           1                       9                         1                                9                              1           10
10   M         14      Family           13                     52                         15                               14                             2           14
11   M         12    Therapeutic        1                      29                         6                                3                              2           14
12   M         12    Therapeutic        1                      54                         6                                11                             2            5
13   F         12      Kinship          2                      52                         4                                4                              1           48
14   F         14    Residential        5                      67                         7                                15                             6           24
15   F         12      Family           2                      17                         2                                11                             1           17
16   M         11      Family           1                      29                         2                                25                             2            9
17   F         11      Family           1                      20                         1                                20                             1           20
18   F         10    Therapeutic        1                      92                         1                                92                             2          120
19   F         12      Family           1                      62                         1                                62                             *           18
20   M         11      Family           3                      26                         12                               6                              4            6
21   M         10      Family           1                      92                         4                                9                              4           70
22   M         9       Family           2                      20                         1                                20                             1           20
23   M         8       Family           1                      12                         2                                10                             1           20
24   M         8       Family           1                      22                         2                                17                             3           90
25   F         11      Family           2                       9                         1                                9                              1           61
26   F         10      Family           1                      26                         4                                18                             2            8
27   F         7      Unknown           1                      13                         2                                5                              2            2
28   F         6       Kinship          1                      35                         3                                17                             3           21
29   M         12      Family           1                      21                         2                                4                              1           22
30   F         17    Residential        4                      15                         3                                11                             2           13
31   M         6       Family           1                      14                         3                                13                             1           14
32   F         5       Family            *                     35                          *                               24                             2           24
33   M         5       Family           2                      21                         2                                12                             1           21
34   F         5       Family           1                      57                         4                                45                             2           42
35   M         16    Residential        2                      18                         4                                6                              3            7
36   F         4       Family           1                      21                         2                                4                              1           21
37   F         4       Family           2                       9                         1                                9                              1            9
38   M         3       Family           1                      29                         2                                13                             2            6
39   F         3       Family           2                      12                         1                                12                             2            9


       OEI-07-00-00643                 CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E   IN   F O S T E R C A R E : N O R T H D A K O TA        17
              A   P   P E N D         I X ~       A



                                Entries Into     Months Since                 Placements                                                         Caseworkers      Months
                  Placement                                                                              Months Since Last
ID Sex Age                      Foster Care      Foster Care                  Since Last                                                          Since Last    Caseworker
                   Setting                                                                                Placement (4)
                                    (1)           Entry (2)                    Entry (3)                                                           Entry (5)    With Case (6)

40    M      3      Family           2                    11                          4                                   5                               1          11
41    F     5      Kinship           1                    22                          1                                  22                               1          22
42    M     10      Family           4                    11                          2                                   4                               1          11
43    F      2      Family           1                    25                          2                                   7                               2          18
44    F      1      Family           1                    19                          1                                  19                               1          19
45    M      1      Family           1                    14                          1                                  14                               1          14
46    F     17      Family           1                    90                          16                                 8                                5           6
47    M     17    Therapeutic        1                    12                          1                                  12                               1          16
48    F     16    Residential        1                    22                          3                                   9                               2          24
49    F     15      Family           2                    46                          6                                  16                               2          16
50*



          KEY
          (1) Entries into Foster Care -- number of times a child has entered State custody.
          (2) Months Since Foster Care Entry -- length of time from the date of the child’s most recent entry into foster care
              until May 2003, when interviews were conducted with caseworkers and foster care providers, or the date the
              child left care if that date precedes May 2003.
          (3) Placements Since Last Entry -- number of placements, in all settings (e.g., Foster Home, Residential Care
              Facility), the child experienced during his/her most recent entry into foster care.
          (4) Months Since Last Placement -- length of time from the dae of the most recent placement to the date the foster
              care provider was interviewed.
          (5) Caseworkers Since Last Entry -- number of caseworkers assigned responsibility for the child since his/her last
              entry into foster care, including family caseworkers and child-specific caseworkers.
          (6) Months Caseworker With Case – number of months the most recent caseworker had been assigned
              responsibility for the child, which may be larger than the number of “Months Since Foster Care Entry,”
              because some caseworkers were working with the child before the child officially entered foster care
              (e.g., through the juvenile justice system, family preservation services).
          (*) Unknown.




          OEI-07-00-00643                CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E   IN   F O S T E R C A R E : N O R T H D A K O TA      18
          A P P E N D I X                       ~           B
                               Medicaid Claims for Sampled Children

           The table below indicates each of the 50 sampled children’s paid Medicaid claims for
           physician and office visits, dental services, prescription medications, and mental health
           services while they were in foster care from November 1, 1999 to November 1, 2002.

                                     N u m b e r o f M e d ica id C la im s *

                          EPSDT and                                                                                                M e n ta l
                                                             D e n ta l                        P re s crip tio n
              O IG ID     P h y s icia n 's                                                                                         H e a lth
                                                            S e rv ice s                       M e d ica tio n s
                          O ffice V is its                                                                                         S e rv ice s
                   1             5                                 11                                     4                              0
                   2             5                                 3                                      50                             64
                   3             2                                 1                                      11                             3
                   4             0                                 0                                      4                              0
                   5             5                                 19                                     4                              1
                   6             2                                 0                                      2                              1
                   7             3                                 4                                      0                              22
                   8             5                                 11                                     6                              8
                   9             1                                 4                                      4                              4
                  10            11                                 25                                     2                              38
                  11             4                                 9                                      19                             3
                  12            12                                 28                                    142                             88
                  13            21                                 12                                     7                              25
                  14             9                                 11                                     62                             51
                  15             1                                 9                                      11                             15
                  16             7                                 15                                     44                             24
                  17             7                                 0                                      2                              6
                  18            12                                 15                                    185                             0
                  19             2                                 7                                      2                              0
                  20            10                                 11                                     18                             28
                  21             1                                 0                                      3                              4
                  22             4                                 6                                      4                              21
                  23             7                                 4                                      9                              2
                  24             3                                 0                                      2                              0
                  25             0                                 0                                      3                              5
                  26             8                                 11                                     11                             44
                  27             1                                 0                                      0                              0
                  28            14                                 14                                     8                              0
                  29             0                                 10                                     0                              11
                  30             7                                 0                                      4                              10
                  31             7                                 9                                      1                              7
                  32             2                                 13                                     2                              0
                  33             8                                 3                                      3                              0
                  34            19                                 0                                      57                             0
                  35             5                                 8                                      25                             20
OEI-07-00-00643           CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E   IN   F O S T E R C A R E : N O R T H D A K O TA    19
      A    P      P E N D    I X ~      B




                                          Number of Medicaid Claims*

                               EPSDT and
                                                                                            Prescription                    Mental Health
                   OIG ID      Physician's              Dental Services
                                                                                            Medications                       Services
                               Office Visits
                    36                8                              15                                  3                               8
                    37                2                              0                                   0                               1
                    38                3                              0                                   0                               0
                    39                3                              0                                   1                               0
                    40                3                              0                                   2                               3
                    41                3                              6                                   1                               0
                    42                0                              0                                  13                               5
                    43               52                              0                                  24                               0
                    44               36                              0                                  10                               0
                    45               24                              0                                   5                               0
                    46                5                              8                                  14                               3
                    47                3                              4                                  38                               6
                    48               18                              8                                  47                              20
                    49               26                              12                                 30                              46
                    50               11                              20                                102                              20
                   Total            407                             346                               1001                             617
           KEY
           * The Number of Medicaid Claims includes only services for which a Medicaid claim was paid.
             Services documented in the case file for which no Medicaid claims were paid are not included.




OEI-07-00-00643             CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E   IN   F O S T E R C A R E : N O R T H D A K O TA   20
       A P P E N D I X                           ~            C

                                     EPSDT Services for Sampled Children

  The table below reflects EPSDT services received by each of the 50 sampled children from
  November 1, 1999 to November 1, 2002 or from entry into care to November 1, 2002,
  whichever is shorter.

                                                                        Days to First Service (4)                                               Services Current (5)
                   Medical         Case Plan              Days Since
      OIG ID      History in      Completed in            Foster Care                                                                          EPSDT
                                                                      EPSDT Medical      Dental                                                             Dental
                  Casefile (1)     30 Days (2)             Entry (3)                                                                           Medical

         1             N                 Y                        441                           10                            23                        B     A
         2             Y                 N                       2658                          199                            65                        A     C
         3             N                 N                        407                           23                           128                        B     A
         4             N                 Y                        295                           56                            X                         B     D
         5             Y                 Y                        776                          117                           112                        A     A
         6             Y                 Y                        347                           X                             36                        D     A
         7             N                 Y                       1265                          156                           152                        A     C
         8             N                 N                        853                          203                           128                        A     C
         9             Y                 Y                        272                           48                            92                        B     B
        10             N                 Y                       1571                          261                           322                        A     A
        11             Y                 Y                        862                           X                            607                        C     A
        12             Y                 Y                       1634                          267                           177                        A     A
        13             N                 Y                       1549                          500                           393                        A     A
        14             Y                 Y                       2017                          196                           169                        C     A
        15             N                 N                        504                          182                           105                        B     A
        16             N                 Y                        874                           21                           250                        A     A
        17             N                 Y                        602                           X                             X                         D     C
        18             N                 N                       2746                           X                            191                        C     A
        19             N                 N                       1863                          329                           337                        A     A
        20             Y                 Y                        776                          118                           112                        B     A
        21             N                 N                       2755                           X                             X                         C     C
        22             N                 Y                        610                          435                            69                        A     A
        23             Y                 Y                        360                          150                            13                        B     A
        24             N                 Y                        654                          288                            X                         B     C
        25             Y                 Y                        264                           X                             X                         D     D
        26             N                 Y                        766                            6                           115                        A     A
        27             N                 Y                        383                          109                            X                         B     C
        28             Y                 Y                       1060                          134                           134                        B     A
        29             N                 Y                        626                          167                           164                        B     A
        30             N                 N                        436                          109                            X                         B     C
        31             Y                 Y                        427                           41                            55                        B     A
        32             N                 Y                       1037                           61                           257                        A     C
        33             N                 Y                        644                          431                           317                        A     A
        34             Y                 Y                       1707                          378                            X                         C     C
        35             N                 N                        549                          148                            79                        B     A
        36             Y                 Y                        615                           22                            40                        B     A
        37             N                 N                        279                           X                             X                         D     D
        38             Y                 Y                        868                          127                            X                         A     D
        39             Y                 Y                        369                           66                            66                        B     B
        40             N                 Y                        334                           69                            X                         B     D




OEI-07-00-00643                  CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E   IN   F O S T E R C A R E : N O R T H D A K O TA        21
    A   P   P E N D        I X ~      C
                                                                                Days to First Service (4)                                 Services Current (5)
               Medical     Case Plan   Days Since
  OIG ID      History in Completed in Foster Care                            EPSDT                                                       EPSDT
                                                                                                              Dental                                  Dental
              Casefile (1) 30 Days (2)  Entry (3)                            Medical                                                     Medical

     41           Y              Y                     653                       429                             478                           B        A
     42           Y              Y                     319                        X                              103                           D        B
     43           Y              N                     740                       117                              X                            C        D
     44           N              Y                     558                        2                               X                            C        D
     45           N              Y                     418                        27                              X                            C        D
     46           Y              Y                    2687                      1044                             33                            A        A
     47           N              Y                     370                        X                              158                           D        A
     48           N              Y                     661                        57                             45                            A        A
     49           Y              Y                    1369                       532                             178                           A        C
     50*


  KEY
  (1) Medical History in Casefile -- casefile documentation provided by the caseworker included a medical history.

  (2) Case Plan Completed in 30 Days -- case plan was completed within 30 days
       Y -- case plan completed within 30 days.
       N -- case plan not completed within 30 days.

  (3) Days Since Foster Care Entry -- number of days the sampled child had been in foster care at the time the
      foster care provider was interviewed.

  (4) Days to First Service:
       A number indicates the number of days between November 1, 1999 (the beginning date for Medicaid
       claims included in our study) or the date the child entered foster care (if the child entered foster care after
       November 1, 1999) and the date the child received his/her first EPSDT medical or dental service.
       X -- child did not receive this type of service within the period covered by our review.

  (5) Services Current:
        A - The most recent required service was received.
        B - One or more services were received, but had they not been provided the child would not have been out
            of compliance based on age or length of time in foster care.
        C - A recent required service was not received.
        D - No services were received. but none were required during our claims window (i.e., the length of time
            the child had been in foster care and the period covered by our claims window did not extend the full
            length of time covered by the EPSDT frequency guideline for the child’s age, or the child was under
            3 years of age and not required to receive dental services).

  *Unknown.




OEI-07-00-00643             CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E   IN   F O S T E R C A R E : N O R T H D A K O TA        22
       A P P E N D I X            ~            D

  Agency Comments - ACF




OEI-07-00-00643   CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E   IN   F O S T E R C A R E : N O R T H D A K O TA   23
    A   P   P E N D   I X ~    D




OEI-07-00-00643       CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E   IN   F O S T E R C A R E : N O R T H D A K O TA   24
    A   P   P E N D   I X ~    D




OEI-07-00-00643       CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E   IN   F O S T E R C A R E : N O R T H D A K O TA   25
    A   P   P E N D   I X ~    D




OEI-07-00-00643       CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E   IN   F O S T E R C A R E : N O R T H D A K O TA   26
             A P P E N D I X                    ~            E
         Agency Comments - CMS




OEI-07-00-00643      CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E   IN   F O S T E R C A R E : N O R T H D A K O TA   27
    A P P E N D   I X ~ E




OEI-07-00-00643   CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E   IN   F O S T E R C A R E : N O R T H D A K O TA   28
       A C K N O W L E D G M E N T S



                  This report was prepared under the direction of Brian T. Pattison,
                  Regional Inspector General for Evaluation and Inspections in the
                  Kansas City regional office, and Gina Maree, Assistant Regional Inspector
                  General. Other principal Office of Evaluation and Inspections staff who
                  contributed include:

                  Deborah Walden, Team Leader
                  Linda Paddock, Project Leader

                  Michala Walker, Program Analyst

                  Brian Whitley, Program Analyst

                  Steve Milas, Program Analyst

                  Zula Crutchfield, Program Analyst

                  Elander Phillips, Program Analyst

                  Linda Hall, Program Specialist (Washington, DC)

                  Barbara Tedesco, Mathematical Statistician (Baltimore, Md.)




OEI-07-00-00643   CHILDREN’S USE   OF   H E A LT H C A R E S E R V I C E S W H I L E   IN   F O S T E R C A R E : N O R T H D A K O TA   29
